               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00926-281


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 Alexandria VA Health Care System 

        Pineville, Louisiana 





September 16, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                            CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                   CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. Acting VISN Director Comments .......................................................................                        15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of August 4, 2014, at the
Natchitoches, LA, CBOC which is under the oversight of the Alexandria VA Health Care
System and Veterans Integrated Service Network 16.

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care and the Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff provide education and counseling for patients with positive alcohol screens and
     drinking alcohol above National Institute on Alcohol Abuse and Alcoholism limits.

	   Managers ensure that patients with excessive persistent alcohol use receive brief
     treatment or are evaluated by a specialty provider within 2 weeks of the screening.

	   Registered Nurse Care Managers receive health coaching training within 12 months
     of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Document the evaluation of patient’s level of understanding for the medication
     education.

Comments
The Acting VISN and Facility Directors agreed with the CBOC and PCC review findings
and recommendations and provided acceptable improvement plans. (See Appendixes
C and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                         i
                               CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees.
The review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                               CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
AUDs. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                    CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the
Natchitoches CBOC. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                  3
                                    CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


NM               Areas Reviewed (continued)                                 Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                  4
                                    CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 5 of 19 patients who had positive alcohol use
       drinking are provided for patients with positive   screens.
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             positive screening for 2 of 14 patients.
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 3 of 20 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that CBOC/Primary Care Clinic staff provide education and counseling
for patients with positive alcohol screens and drinking alcohol above National Institute on
Alcohol Abuse and Alcoholism limits.




VA OIG Office of Healthcare Inspections                                                                       5
                                    CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


2. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.

3. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive health coaching training within 12 months of appointment to Patient Aligned Care
Teams.




VA OIG Office of Healthcare Inspections                                                                  6
                                    CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 19 (49 percent) of 39 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 19 (49 percent) of 39 patients.
       education provided.
       The facility complied with local policy.

Recommendations

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

5. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                      7
                                    CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made
no recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                  8
                                                                            CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                                                                      Appendix A


                                                                      CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                         Uniques4                                   Encounters4

                                    Station                  CBOC
        Location          State                Locality5                   MH7        PC8       Other9       All        MH7        PC8       Other9       All
                                       #                      Size6
    Lafayette             LA       502GB       Urban       Large          2,129       6,713      4,598      7,626     10,466     13,466     15,039     38,971
    Jennings              LA       502GA       Rural       Mid-Size         855       3,887      2,129      4,269      4,001      9,659      5,105     18,765
    Fort Polk             LA       502GF       Rural       Mid-Size         778       2,258      1,723      2,474      3,308      6,178      5,345     14,831
    Natchitoches          LA       502GG       Rural       Small            427         996        896      1,234      3,359      3,103      3,575     10,037




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                               CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
          CBOC                                                Ancillary Services12
                                     Services11                                                 Services13
 Lafayette                           Podiatry                    Pharmacy                  Tele Primary Care
                                                             MOVE! Program14
                                                              Diabetic Retinal
                                                                 Screening
                                                            Prosthetics/Orthotics
                                                                  Nutrition
                                                                Social Work
                                                                 Audiology
 Jennings                                 ---                    Pharmacy                  Tele Primary Care
                                                                  Nutrition
                                                              Diabetic Retinal
                                                                 Screening
                                                                Social Work
                                                              MOVE! Program
 Fort Polk                                ---                   Social Work                Tele Primary Care
                                                                 Pharmacy
                                                            Prosthetics/Orthotics
                                                              MOVE! Program
                                                              Diabetic Retinal
                                                                 Screening
                                                                  Nutrition
 Natchitoches                             ---                    Pharmacy                  Tele Primary Care
                                                                Social Work
                                                                  Nutrition
                                                              MOVE! Program
                                                              Diabetic Retinal
                                                                 Screening




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/). 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                                                                     Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                 
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                    11
                                                                         CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in PCCs 322, 323 and 350. Data is collected twice a month on the 1st and the
15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                12
                                                                          CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                          CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                     Appendix C
                        Acting VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       September 3, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	      CBOC and PCC Reviews of the Alexandria VA Health
                       Care System, Pineville, LA

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service
                       (VHA 10AR MRS OIG CAP CBOC)

       1. The South Central VA Health Care Network has reviewed and concurs
          with action plans provided in response to the draft report submitted for
          the Alexandria VA Health Care System, Pineville, LA.

       2. If you have questions or need additional information, please contact
          Reba T. Moore, VISN 16 Accreditation Specialist at (601) 206-7022.




VA OIG Office of Healthcare Inspections                                                        15
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                     Appendix D
                            Facility Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       August 25, 2014

          From:        Director, Alexandria VA Health Care System (502/00)

       Subject:        CBOC and PCC Reviews of the Alexandria VA Health
                       Care System, Pineville, LA

             To:       Director, South Central VA Health Care Network (10N16)

       I concur with the recommendations contained within this report.
       Our responses are included.




VA OIG Office of Healthcare Inspections                                                        16
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking alcohol
above National Institute on Alcohol Abuse and Alcoholism limits.

Concur

Target date for completion: December 12, 2014

Facility response: Primary Care Providers will be reeducated by 9/5/14 on:
   a. The value of brief intervention, and use of the Positive Audit-C content for
      identifying Veterans who require further education and counseling interventions.
   b. Utilization of the Audit-C follow-up clinical reminder to help facilitate counseling
      and document education.

Once education has been completed, Primary Care will use the NEXUS dashboard to
monitor the percentage of completed Alcohol Screening F/U Clinical Reminders;
Target 90%; Primary Care will report the results of monitoring to the Healthcare Delivery
Committee monthly.

Recommendation 2. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: December 12, 2014

Facility response: Specialty Providers will address the follow-up clinical reminder for
positive screens on the same day as the initial screening. This will be accomplished
through a warm handoff to the provider.

Monthly evaluation of the sa17 measures will be used to monitor the percentage of
timely counseling; Target 90%; Primary Care will report the results of monitoring to the
Healthcare Delivery Committee monthly.

Recommendation 3. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive health coaching training within 12 months of appointment
to Patient Aligned Care Teams.



VA OIG Office of Healthcare Inspections                                                        17
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


Concur

Target date for completion: November 30, 2014

Facility response: In order to provide consistent health coach training to all new
RN Care Managers, TEACH for Success will be coordinated by the
Health Promotion/Disease Prevention (HPDP) program and will be offered in
Quarter 1 and Quarter 3 of each Fiscal Year.
   a. 	FY15 Quarter 1 TEACH for Success class request will be submitted to EES by
       8/29/14. Thereafter, class request will be submitted to EES no later than 30 days
       prior to selected class date.
   b. HPDP 	will encourage involvement/monitoring by appropriate supervisory
      personnel by providing a list of required/delinquent participants to the head
      nurse(s) prior to the scheduled class date and sending a list of those who
      completed the training within two weeks of the class date.
   c. 	 As of 8/18/14, only one newly assigned RN Care Manager has been identified of
        not completing TEACH for Success. This identified RN Care Manager will be
        required to attend the TEACH for Success training being offered in Quarter 1.

HPDP will use the Talent Management System (TMS) to track training. Target: 90% of
newly hired/assigned RN Care Managers will receive TEACH for Success within one
year of assignment. Monitoring will be generated, traced and retained by the
HPDP Program and the data will be reported to the HPDP Program Committee which is
signed by the Associate Director of Patient Care Services and will be routed to
Healthcare Delivery Committee.

Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: January 2, 2015

Facility response: On August 14, 2014, the Chief of Pharmacy Service reviewed
outpatient provider notes to verify and ensure that the medication reconciliation
template was an active part of all outpatient provider notes. Identified 12 notes needing
the template added.

The following template will be added to the notes identified above by August 29, 2014:
“I have reviewed the patient's complete prescription profile, including discharge
prescriptions and non-VA medications, reconciled the list for discharge, and discussed
changes with the patient/caregiver.        The patient received a copy of their
Medication Worksheet Summary. I advised the patient to keep a copy with them at all
times in the event of an emergency and to share the worksheet with any other providers
of care.”


VA OIG Office of Healthcare Inspections                                                        18
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA


Providers will be educated by September 5, 2014, that the Medication Reconciliation
text may be added to any note by processing the clinical reminder.
Medication Reconciliation for fluoroquinolone will be monitored monthly for compliance,
45 records reviewed, target 90% or higher; reported through the
Pharmacy & Therapeutics (P&T) Committee.

Recommendation 5. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: January 2, 2015

Facility response: The Clinical Applications Coordinator will add the following to the
current medication reconciliation template: “Patient/caregiver showed acceptable level
of understanding of medication use and possible side effects.” Providers will receive
education by September 5, 2014.

Once education has been completed, medication reconciliation will be monitored
monthly for compliance, 45 records reviewed, target 90% or higher; reported through
the Pharmacy & Therapeutics (P&T) Committee.




VA OIG Office of Healthcare Inspections                                                        19
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Rose Griggs, MSW, LCSW, Team Leader
Contributors            Larry Ross, MS
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Cathleen King, MHA, CRRN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        20
                           CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Alexandria VA Health Care System (502/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mary L. Landrieu, David Vitter
U.S. House of Representatives: Charles W. Boustany Jr., William Cassidy, John
 Fleming, Vance McAllister, Cedric Richmond, Steve Scalise


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        21
                                CBOC and PCC Reviews at Alexandria VA Health Care System, Pineville, LA
                                                                                          Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act,
     The Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
